Matthew J. Kita
attorney and counselor at law
licensed in texas and california

CERTIFICATE OF SERVICE
I, Matthew J. Kita, hereby certify that 1 copy of the foregoing Brief in
Opposition to the Petition for Writ of Certiorari in Kaufman County, Texas;
Matthew Hinds v. Eunice J. Winzer were sent via Three Day Service to the
U.S. Supreme Court, and 3 copies were sent via Three Day Service and email to the following parties listed below, this 5th day of May, 2020:
S. Cass Weiland
Robert A. Hawkins
Squire Patton Boggs (US) LLP
2000 McKinney Avenue, Suite 1700
Dallas, Texas 75201
cass.weiland@squirepb.com
All parties required to be served have been served.
I further declare under penalty of perjury that the foregoing is true
and correct. This certificate is executed on May 5, 2020.

Respectfully submitted,

Matthew J. Kita
Counsel of Record
P.O. Box 5119
Dallas, Texas 75208
(214) 699-1863
matt@mattkita.com
Counsel for Respondent

214.699.1863

p.o. box 5119
dallas, texas 75208

matt@mattkita.com

